m::

vV.

First District Court of Appeal
State of Florida
No. 1D20-2263
T.A.S., Father of R.A.S., Minor
Child,
Appellant,
v.

Department of Children and
Families,
Appellee.

On appeal from the Circuit Court for Santa Rosa County.
Ross M. Goodman, Judge.
November 25, 2020
Per Curiam.
Affirmed.
Ray, C.J., and BlLBREY and WlNOKUR, JJ. concur.

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

OVER

yi

DISTRICT COURT OF APPEAL, FIRST DISTRICT
2000 Drayton Drive
Tallahassee, Florida 32399-0950
Telephone No. (850)488-6151
^Janua^12^021^
CASE NO.: 1D20-2263
L.T. No.: 15-DP-57
T.A.S., Father of R AS., Minor Child

Department of Children and
Families

v.

Appellee / Respondent(s)

Appellant / Petitioner(s),
BY ORDER OF THE COURT:

Motion for rehearing en banc filed by the appellant on December 14, 2020, is denied.
I HEREBY CERTIFY that the foregoing is (a true copy of) the original court order.
Served:
Hon. Ashley Moody, AG
Sara Goldfarb
Thomasina F. Moore
T. A. S.

Javier Enriquez, GC
Sarah J. Rumph
William "Bill" Eddins, SA

th

Cristina samuels, clerk

m

VI

M A N D A T E
from

FIRST DISTRICT COURT OF APPEAL
STATE OF FLORIDA
This case having been brought to the Court, and after due consideration
the Court having issued its opinion;
YOU ARE HEREBY COMMANDED that further proceedings, if required,
be had in accordance with the opinion of this Court, and with the rules of
procedure, and laws of the State of Florida.
WITNESS the Honorable Stephanie W. Ray, Chief Judge, of the District
Court of Appeal of Florida, First District, and the seal of said Court at
Tallahassee, Florida, on this day.
February 02, 2021
T.A.S., Father of R.A.S., Minor Child v.
Department of Children and Families
DCA Case No.: 1D20-2263
Lower Tribunal Case No.: 15-DP-57

Cristina samuels. clerk
District Court of Appeal of Florida, First District

th
Mandate and opinion to: Hon. Donald C. Spencer, Clerk
cc: (without attached opinion)
Hon. Ashley Moody, AG
Javier Enriquez, GC
Sara Goldfarb
Sarah J. Rumph
TTiomasina F. Moore
William "Bill" Eddins, SA

IN THE CIRCUIT COURT OF THE FIRST JUDICIAL CIRCUIT
IN AND FOR SANTA ROSA COUNTY, FLORIDA
JUVENILE DIVISION
IN THE INTEREST OF:
ROMAN SOSNOWSKI
MINOR CHILD

DOB: 12/23/2009

/CASENO: 15-DP- 3*1

DEPENDENCY SHELTER ORDER
THIS CAUSE came before the Court on September 9.2015., upon the sworn petition filed by the
State of Florida. The Court having reviewed its file and having been otheiwise duly advised in the
premises finds as follows:
CO

1.
- ^
— ^
___
____
^

±

>

Persons Present:

B

Lacey Rocha, Attorney for the State of Florida
c- Jackie Henry/Shannon Xuereb, Child Protective Investigator o ^ to1
__________ _________________ , FamiliesFirst Network
J
Gina Sosnowski, mother
f!
■ 3
, Attorney for the mother g 2=
Thomas Sosnowski, father
co
~n
___________________________ , Attorney for die father
rz>
Carroll/Cosson, Guardian ad Litem Program Attorney
Lindsey1 Dubretril/ Stephanie Barlow/Bmrr Ciulla, Guardian ad Litem
Other(s)________________________

^5
*H S. O

73

o o co
r- o
f“ CT Hi

!H^

rac

^ —i o

a- ni
* as

2.
Jurisdiction: The above-named child was found within the jurisdiction of this Court and
is of an age subject to the jurisdiction of this Court.
3.
i

Placement in Shelter:

On September 8,2015 at 7:00 p.m. the above child was taken into custody by the Santa Rosa
County Law Enforcement.
4.

Notification:

The mother was:
XX
duly notified that the child was taken into custody;
XX
duly notified to be present at this hearing;
served with a statement setting forth a summary of procedures involved in dependency
cases;
The father was:
XX
duly notified that the child was taken into custody;
XX
duly notified to be present at this hearing;
1

%rk ^20/5" heannj
served with a statement setting forth a summary of procedures involved in dependency
cases;
5.
Inability to Notify: The Petitioner has made a good faith effort to notify and/or locate,
but was unable to notify and/or locate: N/A
6.
Right to Counsel: The parents present were advised of their right have an attorney
represent them at the hearing and at all stages of the dependency proceedings.
The mother, Gina Sosnowski:
was represented by counsel_________________________________
knowingly, voluntarily, and intelligently waived the right: or
waived the right to counsel but the court declined to accept the waiver because
requested appointment of counsel, but the court declined appointment because she did
not qualify as indigent.
requested appointment of counsel and counsel was appointed.
was provided an affidavit to determine eligibility for appointed counsel.
The father, Thomas Sosnowski:
was represented by counsel_________________________________
knowingly, voluntarily, and intelligently waived the right: or
waived the right to counsel but the court declined to accept the waiver because
requested appointment of counsel, but the court declined appointment because he did not
qualify as indigent.
requested appointment of counsel and counsel was appointed.
,
was provided an affidavit to determine eligibility for appointed counsel.
....

.
.

The parent(s), guardian(s), orother legal custodian(s) is/are hereby informed of their right to be
represented by an attorney at each stage of the dependency proceedings and of the right of an indigent
person to be represented by court appointed counsel.
7.
The child was properly noticed for the hearing and did/did not appear for the hearing.
The child did hot appear because:
PVtfAWf' OtA

inVvefC HHe
D&F"k

4~

The^hijMy ey-cuipAwy
8.

' Grounds for Removal:

Ujn&O/ilua'kA jbf fev
1/fokyhflM

^

delibmtTcid mrth

faeA\c*l ccc*M$

havWA biW pU'feb/-'

-6W;

W

fo dkw SPoATTAfuemAS 6£o1sjN6XX
There is probable cause that reasonable grounds for removal exist, the provision of appropriate
and available services will not eliminate the need for placement, the child are dependent, and shelter care
is necessary and in the best interest of the child because:
XX

.

<fVf^e ewoWh

The child has been abused, abandoned, or neglected or is/are in imminent danger of
illness or injury as a result of abuse, abandonment, or neglect;

cheek tv»aelvs neyrh-fo blemkcf
5k'hjQ+0'rY
|S no"}- cletfC
convincing tviwendL . where
doctors
rcporfs erne) phofoj ^

7

^,2o/5~ Kca irf
The parent or legal custodian has materially violated a condition of placement imposed
by the court;
_____ The child has no parent, legal custodian, or responsible adult relative immediately known
and available to provide supervision and care.
____ A finding of probable cause cannot be made at this time and the Court requires additional
information to determine the risk to the child. The following information must be provided to the Court
during the continuation of this hearing
_______________________ . This hearing is
continued for 72 hours, until_______
(date/time). The child will remain in shelter care
pending the continued hearing.
_____ This hearing is continued for up to 72 hours, until_____ ______________________
(date/time). The child will remain in shelter care pending the continued hearing. The hearing is being
continued as the parent(s) have requested to be represented by counsel.
9.
Contrary to Welfare: Continuation of the child in the home would be contrary to the
welfare of the child because the home situation presents a substantial and immediate danger to the child's
physical, mental, or emotional health or safety which cannot be mitigated by the provision of preventive
services as follows: As alleged in the Petition for Shelter and incorporated herein bv reference
bWQliUs

AHe rntriW wu a, nifrtwy otOAtoM abus&

XX

The home situation presents a substantial immediate danger to the child which cannot be
mitigated by the provision of preventive services because: Service providers would not be safe
in the home and the father obstructs the Department's access to the child.

XX

The child cannot safely remain at home, either because there are not any preventive services that
can ensure the safety of the child, or because even with appropriate and available services being
provided, the safety of the child cannot be ensured.

10.
Reasonable Efforts: The Department of Children and Family Services has made
reasonable efforts to prevent or eliminate the need to remove the child from the home as follows: The
Department is asking to shelter the child from the father only. The Department is unable to prevent the
child's removal from the father due to the father's instability and opposition to services. Service
providers cannot safely work with the father in the home.
Any specific services, if available, which could prevent or eliminate the need for removal or
continued removal from the home are as follows: X. None OR
Service:
Service:

Date available:
Date available:

The Department is deemed to have made reasonable efforts to prevent or eliminate the need for
removal of the child and the provision of appropriate and available services will not eliminate the need
for placement of the child in shelter care because:
XX

an emergency existed in which the child could not safely remain in the home;

XX

emotional health or safety which cannot be mitigated by the provision of preventive services;

3

S«p"K
XX

the child cannot safely remain in the home because there are no preventative services that can
ensure the health and safety of the child;
even with appropriate and available services being provided, the health and safety of the child
cannot be ensured;
the parent or legal custodian is alleged to have committed any of the acts listed as grounds for
expedited termination of parental rights in F.S. 39.806(1 )(t)-(n).

In addition, services are not available to prevent or eliminate the need for removal or continued
removal because:

11.
The records of a child under the supervision of or in the custody of the Department will
be provided, upon request and at no cost, to the child who is the subject of the case record, and to the
child's caregiver, guardian ad litem, or attorney. The information will be released in a manner and setting
that are appropriate to the age and maturity of the child and the nature of the information being released.
It is ORDERED AND ADJUDGED as follows:
A.
X

Placement: Th*child s-hnll bfi nlacetMn the sholtor cuotodrt)fr Mother. Gina Sosnowskf
thc Department, shelter care, and the Department hac the discretion to*6helter-the-ohild
with a relative on completion of a pusili i'o limne-study, abuse rogistiy, and criminal
background checks. Placement with a nun-relative shall be judicially nviLwoI within 24x
hours of said placement. Tla. Slat. 539.-401(5).
\%jOM
toftvi Cl
Other:

B.
Potential Relative Placements: At the shelter hearing, the Court inquired whether the
parents) has/have relatives who might be considered as a placement for the child. The Court orders the
parent(s) to provide to the Court and all parties the identification and location information of the
relatives. The parent(s) has/have a continuing duty to notify the Department of any relative who should
be considered for placement of the child.
C.
Pursuant to Florida States, Chapter 39.402, a separate order shall be entered to allow the
Department, Guardian ad Litem and FamiliesFirst Network access to the medical and educational records
of the child.
D.
Visitation: The frequency and nature of visitation or contact between the child and the
parents is as follows:
Mother. Gina Sosnowsk:
( )Not Applicable
()$ Supervised visitation with the child. The visitation -shall be supervised at all times by the
Department of Children and Families/Families First Network or an adult approved by the Department.
4

Sep-k ^ Zo\T
The visitation shall occur on a schedule agreed by the parties and at a place agreed by the parties. The
frequency of the visitation shall be:
For a minimum of one hour at least two times weekly.

( ) Unsupervised visitation with the child. The frequency of the visitation shall be:
( ) No contact. Reason:
(X)Other conditions:

Hjyibtyvfef

Afit- (M>&aiCbKbl Tvn hr fnvtei’lflhWi

kg tunde/

( ) Supervised visitation with the child. The day and time of the visit may change as agreed to by the
Partes- Letter writing supervised by the Department while the father is incarcerated. Upon
release from jail the father shall have supervised visitation with the child, for a minimum of one
hour at least one time weekly, to be held at and supervised bv the Visitation Center.
to contact. Reason."

iCikdd* ft/Zklttqfrfra

A

Kftff 1U h

WUU{ |aAjjl 'Muts/ijrfwh'/L

XtttTMmesidtd

ftMfll h m

vfetiraJTbn i L

() Other conditions:

E.
TRAVEL: That the out-of-home custodian(s) of the child have the right to travel with
the child within the continental United States for a period not to exceed fourteen (14) consecutive days
outside the State of Florida without further order of the Court. Notification shall be given to the
parent(s) by the custodian(s), Family First Network, or the Department no later than ten (10) working
days prior to travel. If the parent(s) object to such travel, the parents shall schedule a hearing on the
matter with the clerk of the court. The adult custodiah(s) must notify the DCF or its contract provider in
writing of their travel plans.
F.
Support: The parent(s), guardian(s), or other legal custodian(s) of the child shall pay to
the Department a fee for the child’s care, support and maintenance pursuant to Florida Statute 39.402(11)
so long as the child remain in shelter care.
G.

Medical Consent: When a parent, legal custodian, or legal guardian is/is not available
to consent to medical care, notwithstanding a reasonable effort to obtain such consent, a legal custodian
appointed in theses proceedings, or in the absence of such a legal custodian, the Department, its
Community Based Care contracted agents, Families First Network, including shelter/foster parents, or the
person primarily responsible of the care management of the child, is hereby authorized to consent to the
ordinary and necessary medical, dental, and psychological examination and treatment of the child,
including blood testing, preventative care, ordinary immunizations, tuberculin testing and well-child care
without further court order. Surgery, general anesthesia, provision of psychotropic medications, or other
5

Sfp'h ^ zoisr
extraordinary medical procedures shall require a separate court order. Providers and facilities may
require identification and a signature to ensure compliance with applicable state and federal law.
____ The DCF/Families First Network is authorized to continue administering the child’s psychotropic
medication. Absent the parent’s authorization to continue psychotropic medications, said medications
shall continue until or unless changed by the child’s physician for 28 days or until the arraignment, which
ever is sooner.
H.
Child’s Records: The Department, Families First Network, its authorized
agent/authorized designee, and/or agency responsible for providing services to this family is hereby
authorized to obtain records regarding the above-named child’s medical, behavioral health and
educational background so that a Comprehensive Behavioral Health Assessment may be conducted for
the purposes of accomplishing permanency planning for the above-named child. Any and all medial,
behavioral health and educational records pertaining to the child shall be released to the Department, its
authorized agent/authorized designee, and/or the agency responsible for providing services to this family
so that a Comprehensive Behavioral Health Assessment may be conducted for the above-named child.
The Department of Children and Families/Families First Network is authorized to conduct a
comprehensive behavioral assessment as defined in 39.01(17), Florida Statures.
I.
Medical Information and Records: The parents, legal custodians, legai guardians, or
other caregivers, as applicable, shall provide the Department/Families First Network with all known
information on the medical care and history of the child, including the names of all current and former
medical providers of the child, within 24 hours of this order, and shall execute appropriate authorizations
to release the child’s medical information and records. Upon presentation of a copy of this order, a legal
custodian appointed in these proceedings, or in the absence of such a legal custodian, the Department, its
community Based Care contracted agents, including shelter/foster parents, or the person primarily
responsible for the case management of the child, is hereby authorized to obtain copies of the child’s
medical records from any entity, including but not limited to, public and private health care providers and
facilities, and may execute appropriate authorizations to release the child’s medical information and
records. Providers and facilities may require identification and signature to ensure compliance with state
and federal medical records laws.
J.
Indian Child Welfare Act (ICWA): Inquiiy has been made pursuant to ICWA. The
appropriate tribe Cherokee (name oftribe) has boon notified:- GtfiH ^
K.
Permanent Mailing Address: The parties have provided the court with a permanent
mailing address and said address will be used by the court and the petitioner for notice purposes unless
and until the party notifies the court and the petitioner in writing of a new mailing address pursuant to
F.S. 39.402.
L.
Notice of Arraignment: The Arraignment Hearing is scheduled for October 1.2015 at
l:$0 AdVITP.M. as required by law. THE PARENT(S)/ GUARDIAN HAVE A RIGHT TO BE
REPRESENTED BY AN ATTORNEY AT THE ARRAIGNMENT HEARING AND DURING
THE DEPENDENCY PROCEEDINGS.
M.
The Court has advised the parents, if they fail to substantially comply with the case plan,
their parental rights may be terminated and the child’s out-of-home placement may become permanent.
N.

A Guardian ad Litem

is appointed___is not appointed.

6

Sep-k
o.

2ois~

Other:

P.
The custodian(s) of any child subject to the jurisdiction of this court is/are hereby
directed to notify local law enforcement, the Department of Children and Families, and Families
First Network immediately at any time that the child is determined to be missing or that the child’s
whereabouts are unknown.
The parent or parents who have custody pursuant to this order must notify the case
Q.
manager within two (2) days of any changes with regards to where the child resides, attends school or
daycare, or any other changes in the child’s location of care. The parent/parents are prohibited from
removing the child from the court’s judicial circuit without prior approval of the court and entry of an
order authorizing them to do so. Should the parents fail to comply with these requirements or the child
be unable to be located, the Department may, at the department’s discretion, notify local law enforcement
and submit a missing child report. This language is designed to allow law enforcement to proceed with
all missing child protocols including the commencement of a complete investigation
______ Denial of Shelter Petition. The Shelter Petition filed by the State of Florida is denied without
prejudice and the Department of Children and Families is ordered to return the above-named child to the
parents forthwith. The Court finds that the reason for removal of the child have been or can be remedied
to the extent that the safety and well being of the child will not be endangered. Specifically the Court
finds:______________________

R.
The Department of Children and Families shall have placement and care responsibility
while the child is under protective supervision in an out-of-home placement.
DONE AND ORDERED in Milton, Santa Rosa County, Nunc Pro Tunc.

HQNORABLE MARCI L. GOODMAN
CIRCUIT JUDGE
Certified copies to:
Children’s Legal Services LtCwl'J
Federal Funding
Child Protective Investigator
FamiliesFirst Network
Guardian Ad Litem Program
Gina Sosnowski, c/tfCLS^or Court Appointed Attorney
Thomas Sosnowski,c7qfcDtor Court Appointed Attorney
Custodian, c/o CLS
7

Filing # 47087237 E-Filed 09/29/2016 01:44:00 PM

IN THE CIRCUIT COURT OF THE FIRST JUDICIAL CIRCUIT
IN AND FOR SANTA ROSA COUNTY, FLORIDA
JUVENILE DIVISION
IN THE INTEREST OF:
ROMAN SOSNOWSKI

DOB: 12/23/2009

MINOR CHILD
------- —____________ _/ CASE NO: 15-DP-57
ORDER TERMINATING PROTECTIVE SERVICES SUPFR VTftTnM
p . +.THLS MAT™R taog brought before the Court on a Motion for Order Terminating
Se"‘“s tS“P™” flled ^ the State of Florida Department of Children Ld
thT^remis/s fmdT" ’ ^ 6 0U't’haVmg considered the Motion, and being folly advised in
mother, 1.Gina Sos’no'w^ ^

°f ^ ^ ‘° “ ** ^ CUstody “d

of the

2.

3.

supervision
supervision. THe
t

• 4.
.

On

<LjW ihe

Orjiirlo

o»AZ7

°' AddicJxofi recovery iraii-me3.$-

. °” June 24> 2016> 3,1 order was entered granting the Department discretion to
protective services supervision by motion and order and without the necessity of a

- “» *■*” •«”«* * »»* r«
5.

The Guardian ad Litem Program was discharged on September 13 ,2016.

ADJUDGMVth™1^’ b3Sed UP°n thC f°regoing findings’ if is hereby ORDERED AND
1.

GRANTED.

The Department’s Motion to Terminate Protective Services Supervision is hereby

of the L*. OtaS-oX™ S0SN0WSKl ■“ —

1
Electronically Filed Santa Rosa Case # 15000057DPMXAX 09/20/2016 08:24:09 PM

- e.™.

nnil/ji3.
^ther, Thomas Sosnowski, shall have NO
CONTACT with the child,
ROMAN SOSNOWSKI until further order of this
court. This shall include any telephonic*
electronic, or third party contact.
4.

and effect.

Protective Supervision is TERMINATED.
A“ ^ °rderS

inconsistent

,he Present Order shall remain in full force

6., , This Court shall retain jurisdiction over this cause to enter any such further orderc
an,
d may be deemed necessary for the best interest and welfare of the child.
7.
That the Judicial Review Hearing scheduled for November 17,
2016, is hereby
CANCELLED.

DONE AND ORDERED at Milton, Santa Rosa County, Florida.

eSigned by MARC! GOODMAN 09/291201612:26:00 zH82u7F2

HONORABLE MARCIL. GOODMAN
CIRCUIT COURT JUDGE
Copies furnished to:
Children’s Legal Services
Megan Williams, FamiliesFirst Network
Eunice Maling, Attorney for the mother
Robert Allen, Attorney for the father
Guardian ad Litem

2

v

I

'

~

'

’

Filing # 100418849 E-Filed 12/17/2019 10:42:34 AM

5^| ZoI^ Ey.- Paric hearing
IN THE CIRCUIT COURT OF THE FIRST JUDICIAL CIRCUIT
IN AND FOR SANTA ROSA COUNTY, FLORIDA
JUVENILE DIVISION
IN THE INTEREST OF:

^omansosnowskT)

DOB: 12/23/2009

MINOR CHILD
/(CASE NO: 15-DP-57
ORDER ON LONG TERM REVIEW, REINSTATEMENT OF PROTECTIVE
SERVICES SUPERVISION AND NOTICE OF NEXT HEARING
THIS CAUSE came before the Court on/becember 5, 2019jt)n a Long Time Review set
by the Court. The Court having heard testimony ana argument, and having been otherwise duly
advised in the premises finds as follows:
1.

Jurisdiction: The minor child who is the subject matter of these proceedings was
adjudicated dependent, continues to be dependent, is of an age subject to the jurisdiction
of the court, and is a resident of the State of Florida.

2.

Notice: AH persons entitled to notice of this hearing were properly noticed of the hearing
and were provided a copy of documents filed for this hearing.
.

3.

There IS

wKT received Aok<^ cftHite, h ear i

Persons Present: The*following persons were present:
|x| Aoife Ritchie, Attorney for the State of Florida Children’s Legal Services
EsL, Bobbi Lowe, FamiliesFirst Network. Child Welfare Team Manager
□ Thomas Sosnowski, Father
, Attorney for the Fathg)

□

E Brittany Hightower, Adult sibling
m Child, ROMAN SOSNOWSKI
ESI Several family supports
4.

3

pa

Counsel for Parents: The parent(s) were advised of the right to be represented by counsel
throughout all hearings of the dependency proceedings.
^Themother, Gina Sosnowski"is decease^)
The father, Thomas Sosnowski, is currently incarcerated at Graceville Correctional Facility
in Graceville, Florida.

penv\<ooe/i+ Mo CfwWf 0r&er $cwc.+ioftecl ajtnn$f
6oTH
Son find IT
eyJenJed |k\ this beepw her
2oi ^
EX PARTF kearmj (s-ee pajt 3 )
Electronically Filed Santa Rosa Case# ISOOOOSTD^MXAX 12/17/2019 09:42:34 AM

Dec-5~|2o|^ £>.-Ajrfc hearmj
5.

Participation of the child. The court finds that the child was invited to participate in the
judicial proceedings and the child was present and did participate in the hearing.

6.

Findings of Fact: The factual basis for the reinstatement of protective supervision is as
follows:
a.

The mother is deceased and the child needs a legal caregiver.

7.

All parents whose location is known were notified of their right to participate in the
preparation of the case plan and to receive assistance from any other person in the
preparation of the case plan.

8.

Placement:
0 Out-of-Home Placement: It is in the best interests of the child to remain out of the
parents’ home at this time. The child is receiving safe and proper care. The child’s current
placement is the least restrictive, is appropriate, is in a setting that is as family-like and as
close to the parent’s home as possible, is consistent with the child’s best interest and special
needs and is designed to maintain stability in the child’s educational placement.
Continuation of the child in that home is contrary to the welfare of the child because the
home situation presents a substantial and immediate danger to the child which cannot be
mitigated by the provision of the preventative services at this time. As specified in the
Judicial Review Social Study Report/Case Plan Update/Permanency Report filed by the
Department of Children and Families for the purposes of this hearing, if the child is out of
the home, reasonable efforts to prevent removal and eliminate the need for removal of the
child from the home have been made by the Department of Children and Families and/or
reunify; however, there is continued need for out-of-home placement to ensure the child’s
health, safety and well-being, and reunification with the biological mother and/or father at
this time would be detrimental to the welfare and contrary to the best interests of the child.
A copy of the formal notice regarding a trust promulgated for the benefit of certain classes
of children in care in Florida was attached to Shelter Petition as a means of providing
notice. As set forth in that notice, representatives of the Department of Children and
Families can provide additional information to the parents, custodians and Guardian Ad
Litem as might be appropriate in each specific case.
The out-of-home placement is:
13 Relative placement with Brittany Hightower.

10.

The records of a child under the supervision of or in the custody of the Department will be
provided, upon request and at no cost, to the child who is the subject of the case record,
and to the child's caregiver, guardian ad litem, or attorney. The information will be released
in a manner and setting that are appropriate to the age and maturity of the child and the
nature of the information being released.

11.

The parent/parents is/are hereby notified of the right to participate in a private adoption
plan and the availability of private placements of the child with an adoption entity as
2

Dec. 5j 20K

E)c— Pa^ix, karrinj

defined in Chapter 63, Florida Statutes. If a parent executes a consent for adoption of a
minor child with an adoption entity or qualified prospective adoptive parents and the
requirements of section 63.082(6) are satisfied, the court will determine whether the best
interests of the child are served by transferring custody of the minor child to the prospective
parent selected by the parents or the adoption entity by considering and weighing all
relevant factors, including, but not limited to:
A. The permanency offered;
B. The established bonded relationship between the child and the current caregiver in
any potential adoptive home in which the child has been residing;
C. The stability of the potential adoptive home in which the child has been residing as
well as the desirability of maintaining continuity of placement;
D. The importance of maintaining sibling relat ionships, if possible;
E. The reasonable preferences and wishes of the child, if the court deems the child to
be of sufficient maturity, understanding, and experience to express a preference;
F. Whether a petition for termination of parental rights has been filed pursuant to s
39.806(l)(f), (g), or (h);
G. What is best for the child; and
H. The right of the parent to determine an appropriate placement for the child
Accordingly, it is ORDERED AND ADJUDGED as follows:
1.

Protecti.ves Services Supervision is hereby reinstated.

2.

Placement:
E9 The child is placed in the temporary care and custody of Brittany Hightower, relative,
under the protective supervision of the Department. The Department shall have
placement and care responsibility while the child is under protective supervision in an
out-of-home placement.

3.

Visitation:

r\nj

Father:
iEt Suspended. The father shall have no contact with the minor child ROMAN
SOSNOWSKI. This shall include anv telephonic, electronic, or third-partv contact.
4.

Other:

5.

Consent to Treatment: So long as the parents are unavailable, an authorized agent of the
Department of Children and Families/Families First Network, including an adult relative
or non-relative caregiver if the child is placed with such relative or non-relative caregiver,
may consent to the ordinary and necessary medical and dental examinations and treatment,
including Early Periodic Screening, Diagnosis and Treatment (EPSDT) blood testing and
other blood testing deemed diagnostically necessary by documented history or
3

DtC- 57 2-oH

I

B>c— fissr+e kea^iyi

y

symptomatology; preventive care including ordinary immunizations, tuberculin testing,
well-child care, but not including surgery, general anesthesia, HIV, and controlled
substance blood testing, or other extraordinary procedures for which separate Court order
or informed consent as provided by law shall be required.
6.

Medical Information: The parents, legal custodians, legal guardians, or other caregivers,
as applicable, shall provide the Department with all known information on the medical care
and history of the child that is currently in their possession, including the names of all
current and former medical providers of the child, within 24 hours of this order, and shall
execute appropriate authorizations to release the child’s medical information and records.
Upon presentation of a copy of this order, a legal custodian appointed in these proceedings,
or in the absence of such a legal custodian, the Department, its community based care
contracted providers, including shelter/foster parents, or the person primarily responsible
for the case management of the child, is hereby authorized to obtain copies of the child’s
medical records from any entity, including but not limited to, public and private health care
providers and facilities, and may execute appropriate authorizations to release the child’s
medical information and records. Providers and facilities may require identification and a
signature to ensure compliance with state and federal medical records laws.

7.

Child’s Records: The parents shall make all medical, dental, psychological, psychiatric
records and school records of the child available to the Department of Children and
Families/Families First Network and authorize the release of such records as needed for
the continued supervision, care and custody of the child. So long as the parents are
unavailable, an authorized agent of the Department of Children and Families/Families First
Network, including an adult custodian, if the child is placed with such adult custodian, may
consent to the release of such records as needed for the continued supervision, care and
custody of the child.

8.

Retention of Jurisdiction. The Court retains jurisdiction over the parties hereto and
subject matter hereof to make such other and further Orders as the Court may deem
necessary and proper.

9.

This matter is scheduled for a Case Plan Review Hearing on January 30,2020, at 9:00 a.m.

10.

Report of a Missing Child: The parents) or custodians who have custody pursuant to
this order must notify the case manager within two (2) days of any changes with regards to
where the child resides, attends school or daycare, or any other changes in the child’s
location of care. The parent(s) or custodians are prohibited from removing the child from
the court’s judicial circuit without prior approval of the court and entry of an order
authorizing them to do so. Should the parent(s) or custodians fail to comply with these
requirements, or the child be unable to be located, the Department may, at the Department’s
discretion, notify local law enforcement and submit a missing child report. This language
is designed to allow law enforcement to proceed with all missing child protocols including
the commencement of a complete investigation.

>

4

b&t-20l^j E-y. ~Pa<rit hearwntz
IT IS SO ORDERED in Milton, Santa Rosa County, Florida.

eSigned by Ross Goodman in 15000057DPMXAX
on 12/17/2019 09:38:55 .htd2pkB

CIRCUIT COURT JUDGE
NOTICE OF HEARING
The Juvenile Court hereby gives notice of hearing in the above styled cause on January 30,
2020 at 9:00 a.m. for a Case Plan Acceptance Hearing and May 7, 2020 at 9:00 a.m. for a Judicial
Review Hearing before the Honorable Ross Goodman, at the Santa Rosa County Courthouse,
located at 6865 Caroline Street, S.E., Milton, Florida 32570, or as soon thereafter as counsel can
be heard.
E*. Parfc \wnrmj

VVy 7,

\Pds a/i

If you are a person with a disability who needs any accommodation in order to
participate in this proceeding, you are entitled at no cost to you, to the provision
of certain assistance. Please contact Court Administration, ADA Liaison, Santa
Rosa County, 6865 Caroline Street, Milton, Florida 32570, Phone (850) 6233159, Fax (850) 982-0602; ADA.SantaRosa@flcourtsl.gov, at least seven days
before your scheduled court appearance, or immediately upon receiving this
notification if the time before the scheduled appearance is less than 7 days; if
you are hearing or voice impaired, call 711.
PLEASE BE GOVERNED ACCORDINGLY.
Copies furnished to:
Children’s Legal Services, Aoife Ritchie, Aoife.Ritchie@mvflfamilies.com:
micheHe.iewis@mvflfamilies.com: 6557 Caroline Street, Milton, FL 32570
FamiliesFirst Network, 6557 Caroline St, Milton, FL 32570
Thomas Sosnowski, DC# 413309 c/o Graceville Correctional Facility, 5168 Ezell Road,
Graceville, FL 32440
Brittany Hightower, CONFIDENTIAL c/o CLS
Guardian ad Litem, clgalmi.eservice@gal.fl.gov; 5643 Stewart St, Milton, FL 32570
Federal Funding

5

. «•

Filing # 110073144 E-Filed 07/10/2020 01:48:00 PM

Jo'At

heart nj
IN THE CIRCUIT COURT OF THE FIRST JUDICIAL CIRCUIT
IN AND FOR SANTA ROSA COUNTY, FLORIDA
JUVENILE DIVISION

IN THE INTEREST OF:
(ROMAN SOSNOWSkT)

decision be(W
DOB:

MINOR CHILD
ORDER ON DEPARTMENT’S MOTION TO CONTINUE CASE PLAN GOAL
OF PERMANANT GUARDIANSHIP, ORDER PLACING CHILD IN A
PERMANENT GUARDIANSHIP AND ORDER TERMINATING
PROTECTIVE SERVICES SUPERVISION
THIS MATTER came on to be heard op^une 25,2020^upon the motion from the Florida
Department of Children and Families, hereinafter referred to as the Department, to place the above
named child in a Permanent Guardianship, to Terminate Protective Supervision, and to Accept the
Permanent Guardianship Case Plan pursuant to section 39.6221, Florida Statutes (2019), and
Florida Rule of Juvenile Procedure 8.425, and this Court having reviewed the Motion and court
file, having carefully considered and weighed all testimony and argument of counsel, and being
fully advised of the premises, finds as follows:
1.

Jurisdiction: The child, who is the subject matter of these proceedings, was adjudicated
dependent, continues to be dependent, is of an age subject to the jurisdiction of the court,
and/or resident of the State of Florida.

2.

Notice: All persons entided to notice of this hearing were properly noticed of the hearing
and were provided a copy of documents filed for this hearing.
(3 The caregiver ED appeared □ did not appear for the hearing and
Ewas provided an opportunity to be heard and stated that the child is happy and
-AD£ - no longer need services
15

<>£ cJiiW ^sytholojittv) *tnavnvi ■+hefy*j9'{

3.

.

as a ^cs^lr

Persons Present: The following^persons were present:
E3 Aoife Ritchie, Attorney for the State of Florida Children’s Legal Services
0 Hillary Jones, Child Welfare Case Manager
jMr& VjOb rendered (UOi^-yT
® Thomas Sosnowski, Father
El Jason Cobb, Attorney for the Father
El Patrick Jennings, Attorney Ad Litem

Ufo'C -fW.
Colll^T
m
j
,
^ W M*tf

'Transcripts k/lll prov-t
4.

Counsel for Parents: The parents were advised of the right to be.represented by counsel
throughout all hearings of the dependency proceedings.

pn>v-t +hvf CoxiA'
Presence of Child: Pursuant to Rule 8.255(b), Fla. R. Juv. P.: Appoin+W Covtjsel
5.
^ provid*#
Electronically Filed Santa Rosa Case # 15000057DPMXAX 07/10/2020 12:48:00 PM
1
■fra rh)^®u3

^
*

Juft-e ZSjvno hear)\nj
S The child was present at hearing.
6.

qf-kr y•ear', o$ Iki«^ brtmvaf hfj

Compliance with Conditions for Permanent Guardianship: Pursuant to section
39.6221, Florida Statutes (2019), and Florida Rule of Juvenile Procedure 8.425(d), it is
shown as follows:
a. The above-named minor child was adjudicated dependent on November 24, 2015 and
placed on December 4,2019, in the temporary legal custody of Brittany Hightower, the
proposed permanent guardian under protective supervision.
b. The above-named child has been in the placement for not less than the preceding six
months.
c. The proposed permanent guardian is suitable and able to provide a safe and permanent
home for the above-named child.
d. The above-named child and the proposed permanent guardian are not likely to need
supervision or services of the Department to ensure the stability of the permanent
guardianship.
e. The proposed permanent guardian has made the commitment to provide for the abovenamed child until the above-named child reaches the age of majority and to prepare the
above-named child for adulthood and independence.
f. The child demonstrates a strong attachment to the prospective permanent guardian and
such guardian has a strong commitment to permanently caring for the child.
g. Permanent Guardianship is in the best interest of the child instead of adoption because:
(SELECT ALL THAT APPLY AND/OR ADD ADDITIONAL REASONS—
Delete this sentence after selection)
□ Adoption has been discussed with the current custodian and the custodian does not
wish to adopt the child.
□ The Child is 12 years of age or older and does not wish to be adopted.
□ The custodian is protective of the child and all parties agree the parents) should be
able to maintain some contact with the child.
S The child has spent a significant amount of time with the custodian since December
4. 2019. and removal from this placement is not in the best interest of the child.
□ The custodian will not be approved to adopt because: (enter specific reason)

2

Juhe

h ca^mj

h. Reasonable efforts were made to prevent or eliminate the need for removal of the minor
child from the home by the Department; however, there is a continued need for out-ofhome placement to ensure the minor child’s health, safety, and well-being.
Reunification with either parent at this time would be contrary to the welfare and not
in the best interest of the minor child. The parents are not fit to care for the minor child
and reunification is not possible.
(You must choose one of the following options. Delete this direction and the
directions below after you insert the applicable findings):
OPTION 1: Insert specific findings that demonstrate why the parents are not
fit to care for the child and why reunification is not possible.
Or ....
OPTION 2: Insert specific findings that were previously made in the order
adjudicating the child dependent that establish why the parents are hot fitto
care for the child and why reunification is not possible
Or
OPTION 3: Insert both of the findings outlined above.
i. The Court finds that despite being offered services to alleviate the issues that led to die
order adjudicating die child dependent, the parents are not fit to care for die child and
reunification is notpossible because
(KNTKR SPECIFICS OF LACK OI' BEHAVIOR CHANCE AND
CONTINUED THREAT OF HARM TO CHILD. Delete this sentence after
entering the specifics)
Accordingly, it is ORDERED AND ADJUDGED that:
i;

Retention of Jurisdiction: The court shall retain jurisdiction of the above-named child.
Notwithstanding retention of jurisdiction, the placement shall be considered permanency
for the above-named child.

2.

The Court grants the Department’s Motion to continue the case plan goal of Permanent
Guardianship and Terminate Protective Services Supervision.

3.

Protective Supervision: Supervision of the Department is hereby terminated.

4.

Placement: the child is hereby placed in the custody of Brittany Hightower, in permanent
guardianship.

5.

Rights/Duties of Permanent Guardian: The permanent guardian shall have all the rights
and duties of a parent, including, but not limited to: the right, duty, and authority to protect,
train, and discipline the minor child; to provide the minor child with food, shelter, and
education; to provide and consent to necessary medical, dental, psychiatric, and
psychological examination and treatment; to provide for and consent to the child’s travel,

3

JuV\£, *2hGer^nij /n iuhi(M Judj-t cy'Whdtd
Mo, {orilac'f (Vcitv bfk'fc- realrejwj £ o/fi5 /n kHihdtMut kv pkhe
participation in social and extracurricular activities, and participation in driver’s education
or applying for a driver’s license; and to obtain all records regarding the minor child,
including medical, mental health, and educational records.

6.

Return to Parent: The permanent guardian shall not return the minor child to the physical
care and custody of the parents from whom the minor child was removed, including for
short visitation periods, without the approval of the court.

7.

Change in Location or Care: The proposed permanent guardian agrees to inform the clerk
of court and die Department, in writing, of any change in the residential address of the
permanent guardian or physical residence of die minor child within 10 days of the change.

8.

Court Orders: The permanent guardian is ordered to follow the orders of this Court and
to protect the minor child. If any order of this Court is violated, die minor child may be
subject to temporary or permanent removal from the custody of the permanent guardian
and the permanent guardian may be held in contempt of court

9.

Order for the Permanent Guardian: Pursuant to section 39.6221(3), Florida Statutes
(2019) and Florida Rule of Juvenile Procedure 8.425(e), a separate order shall be entered
establishing the authority of the permanent guardian to care for the above-named child,
reciting the permanent guardian’s powers and authority with regard to the above-named
child, and providing any other information the court deems proper which can be provided
to persons who are not parties to the proceeding as necessary, notwithstanding
confidentiality provisions of section 39.202.

10.

Visitation: Pursuant to section 39.6221(2Xc), Florida Statutes (2019) and section
39.6221(2)(d), Florida Statutes (2019) parent and/or grandparent visitation with the child
shall be as follows:
Father:
Suspended. ^—■
□ Other conditions:
Other persons:

11.

Additional Rulings:

12.

Prior Orders: All prior orders that relate to visitation, protection of the child and
limitations on custody of the child, so long as they do not conflict with the provisions of
this order, shall remain in full force and effect unless modified by the court.

4

:■

JoiaC 2-5T u>~2£>
13.

l

kta\nna

Case Plan: The Case Plan with the permanency goal of Permanent Guardianship is hereby
CONTINUED.
IT IS SO ORDERED in Milton, Santa Rosa County, Florida.

eSigned by Ross Goodman in 15000057DPMXAX
on07/10_/2_020 1_2:40^07UY:S6qgj__

CIRCUIT COURT JUDGE
Copies to:
Children’s Legal Services, Aoife Ritchie, Adife.Ritchie@mvflfamilies.com:
michelle.lewis@mvflfamilies.com: 6557 Caroline Street, Milton, FL 32570
Hillary Jones, CWCM, Hillarv.Jones@bhcDns.org. FFN, 8750 Ortega Park Drive, Navarre, FL
32563
Jason Cobb, Attorney for the fatherjasonandrewcobb@earthlink.net,
melissajasoncobb@yahoo.com; 1073 Caswell Rd, Defuniak Springs, FL 32433
Guardian ad Litem, clgalmi.eservice@gal.fl.gov; 5643 Stewart St, Milton, FL 32570
Brittany Hightower, c/o CLS

5

